PETITIONER’S EXHIBIT 1
Letter Mandate from 11th Circuit

5

\

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www .cal 1 .uscourts.gov

David J. Smith
Clerk of Court

August 08,2019
Clerk - Southern District of Georgia
U.S. District Court
Federal Justice Center
600 JAMES BROWN BLVD
— ' AUGUSTA/GA*30901 —-----Appeal Number: 18-12788-EE
Case Style: Christopher Lawrence v. University Hospital, et al
District Court Docket No: l:17-cv-00115-JRH-BKE
A copy of this letter, and the judgment form if noted above, but not a copy of the court's
decision, is also being forwarded to counsel and pro se parties. A copy of the court’s decision
was previously forwarded to counsel and pro se parties on the date it was issued.
The enclosed copy of the judgment is hereby issued as mandate of the court. The court's opinion
was previously provided on the date of issuance.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: LoisTunstall
Phone#: (404)335-6191
!---

Enclosure(s)
MDT-1 Letter Issuing Mandate

i • '^
UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 18-12788
District Court Docket No.
l:17-cv-00115-JRH-BKE
CHRISTOPHER LAWRENCE,
Plaintiff - Appellant,
" PETRICE RlSKS7eral~
Plaintiffs,
versus
UNIVERSITY HOSPITAL,
UNIVERSITY HOSPITAL BOARD OF COMMISSIONERS,
CEO JIM DAVIS,
DR. FARR,
CNO REYNEE GALLUP, et al.,
Defendants - Appellees.
Appeal from the United States District Court for the
Southern District of Georgia
JUDGMENT "
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: July 10, 2019
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna Clark

ISSUED AS MANDATE 08/08/2019

PETITIONER’S EXHIBIT 2
Order from 11th Circuit

j

6

Case: 18-12788

Date Filed: 07/10/2019

Page: 1 of 4
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12788
Non-Argument Calendar
D.C. Docket No. l:17-cv-00115-JRH-BKE

CHRISTOPHER LAWRENCE,
Plaintiff-Appellant,
' PETRICE RICRS, et aL, -

.—te - —

Plaintiffs,
versus
UNIVERSITY HOSPITAL,
UNIVERSITY HOSPITAL BOARD OF COMMISSIONERS,
CEO JIM DAVIS,
DR. FARR,
RNO REYNEE GALLUP, et al.,
Defendants-Appellees.

Appeal from the United States District Court
for the Southern District of Georgia
(July 10,2019)

Case: 18-12788

Date Filed: 07/10/2019

Page: 2 of 4

Before TJOFLAT, MARCUS and ROSENBAUM, Circuit Judges.
PER CURIAM:
Plaintiffs appeal the District Court’s order dismissing their pro se complaint
for lack of subject matter jurisdiction. The complaint alleged state law claims of
medical negligence, gross negligence, and the wrongful death of Daphne Lawrence
Ricks. On appeal, plaintiffs argue that the District Court erred in finding that it
lacked subject matter jurisdiction because the parties were only minimally diverse.
We review de novo dismissals for lack of subject-matter jurisdiction,
Barbour v, Haley, 471 F.3d 1222, 1225 (11th Cir. 2006), and review for clear error
a District Court’s factual findings concerning jurisdiction, Bryant v. Rich, 530 F.3d
1368, 1377 (T 1th Cir. 2008). District courts have subject matter jurisdiction over civil actions between
citizens of different states, or between citizens of a state and citizens of a foreign
country, where the amount in controversy exceeds $75,000. 28 U.S.C. § 1332(a).
Diversity jurisdiction requires complete diversity of citizenship between all
plaintiffs and defendants. Strawbridge v. Curtiss, 7 U.S. (3 Cranch) 267, 267
(1806). The party invoking jurisdiction must allege the citizenship of the parties as
of the time suit is filed in federal court. See Travaglio v. Am. Express Co., 735
F.3d 1266, 1268 (11th Cir. 2013). A natural person is a citizen of the state in
which they are domiciled, id. at 1269, and a corporation is a citizen of its state of
2

— t *&•

Case; 18-12788

Date Filed:, 07/10/2019

Page: 3 of 4

incorporation and the state in which it has its principal place of business, 28 U.S.C.
§ 1332(c)(1).
Plaintiffs appear to concede that the parties in this case are not completely
diverse.1 They argue, however, that complete diversity isn’t required for several
reasons. First, plaintiffs argue that their action should be allowed to proceed under
the federal interpleader statute, 28 U.S.C. § 1335. If this were correct, minimal
diversity among the parties would be sufficient to confer jurisdiction. See State
Farm & Cas. Co. v. Tashire, 386 U.S. 523, 530-31, 87 S. Ct. 1199, 1203-04
(1967). But the interpleader statute is inapplicable: there are not two or more
adverse claimants in this case who “are claiming or may claim to be entitled to ...
~~

' 'money oTprbperty” or other benefits qf a financial instrument. See-28 U.S.C. §
1335(a)(1). So this argument is unavailing.
Plaintiffs’ second argument for minimal diversity appears to be premised on
the Class Action Fairness Act (“CAFA”), which requires only minimal diversity
for class actions that meet specified criteria. 28 U.S.C. § 1332(d)(2).2 We agree
with the District Court that CAFA is inapplicable as this case involves fewer than

1 On this and many other issues, plaintiffs’ position is far from clear. What is clear,
however, is that the parties are not completely diverse—several of the plaintiffs, and all of the
defendants, are domiciled in Georgia.
2 Again, this argument doesn’t exactly leap off the page of plaintiffs’ brief. But the
District Court addressed this possible jurisdictional ground, and plaintiffs refer to that portion of
the District Court’s order in their briefing.
3

A" — » V

Case: 18-12788

Date Filed: 07/10/2019

Page: 4 of 4

100 plaintiffs and the aggregated claims do not exceed $5,000,000. So this
argument is also unavailing.
Because there is no basis for federal subject matter jurisdiction in this case,
we affirm the District Court’s order dismissing plaintiffs’ claims.
AFFIRMED.

4

